USCA4 Appeal: 20-1131

Doc: 13

Filed: 05/21/2020

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1131
DERRICK ALLEN,
Plaintiff - Appellant,
v.
SARA GLINES; JIM PURYEAR; ROBYN TOMLIN; JANE ELIZABETH; NEWS
& OBSERVER; HERALD SUN,
Defendants - Appellees.

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. Thomas D. Schroeder, Chief District Judge. (l:19-cv-00793-TDS-LPA)
Submitted: May 19, 2020

Decided: May 21, 2020

Before NIEMEYER, HARRIS, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Derrick Michael Allen, Sr., Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-1131

Doc: 13

Filed: 05/21/2020

Pg:2of2

PER CURIAM:
Derrick Allen appeals the district court’s order accepting the recommendation of the
magistrate judge and dismissing Allen’s 42 U.S.C. § 1983 (2018) complaint under
28 U.S.C. § 1915(e)(2)(B) (2018). We have reviewed the record and find no reversible
error. Accordingly, we deny Allen’s motion to appoint counsel and affirm for the reasons
stated by the district court. Allen v. Glines, No. l:19-cv-00793-TDS-LPA (M.D.N.C. Jan.
21, 2020). We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

2

USCA4 Appeal: 20-1131

Doc: 14-1

Filed: 05/21/2020

Total Pages:(1 of 4)

Pg: 1 of 3

FILED: May 21, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1131,

Derrick Allen v. Sara Glines
l:19-cv-00793-TDS-LPA

NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please be
advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: To be timely, a petition for certiorari
must be filed in the United States Supreme Court within 90 days of this court's entry of
judgment. The time does not run from issuance of the mandate. If a petition for panel
or en banc rehearing is timely filed, the time runs from denial of that petition. Review
on writ of certiorari is not a matter of right, but of judicial discretion, and will be
granted only for compelling reasons, ('www.supremecourt.gov')
VOUCHERS FOR PAYMENT OF APPOINTED OR ASSIGNED COUNSEL:
Vouchers must be submitted within 60 days of entry of judgment or denial of
rehearing, whichever is later. If counsel files a petition for certiorari, the 60-day period
runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is being made from
CJA funds, counsel should submit the CJA 20 or CJA 30 Voucher through the CJA
eVoucher system. In cases not covered by the Criminal Justice Act, counsel should
submit the Assigned Counsel Voucher to the clerk's office for payment from the
Attorney Admission Fund. An Assigned Counsel Voucher will be sent to counsel
shortly after entry of judgment. Forms and instructions are also available on the court's
web site, www.ca4.uscourts.gov. or from the clerk's office.
BILL OF COSTS: A party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entry of judgment. (FRAP
39, Loc. R. 39(b)).

USCA4 Appeal: 20-1131

Doc: 14-1

Filed: 05/21/2020

Pg:2of3

Total Pages:(2 of 4)

PETITION FOR REHEARING AND PETITION FOR REHEARING EN
BANC: A petition for rehearing must be filed within 14 calendar days after entry of
judgment, except that in civil cases in which the United States or its officer or agency
is a party, the petition must be filed within 45 days after entry of judgment. A petition
for rehearing en banc must be filed within the same time limits and in the same
document as the petition for rehearing and must be clearly identified in the title. The
only grounds for an extension of time to file a petition for rehearing are the death or
serious illness of counsel or a family member (or of a party or family member in pro se
cases) or an extraordinary circumstance wholly beyond the control of counsel or a
party proceeding without counsel.
Each case number to which the petition applies must be listed on the petition and
included in the docket entry to identify the cases to which the petition applies. A
timely filed petition for rehearing or petition for rehearing en banc stays the mandate
and tolls the running of time for filing a petition for writ of certiorari. In consolidated
criminal appeals, the filing of a petition for rehearing does not stay the mandate as to
co-defendants not joining in the petition for rehearing. In consolidated civil appeals
arising from the same civil action, the court's mandate will issue at the same time in all
appeals.
A petition for rehearing must contain an introduction stating that, in counsel's
judgment, one or more of the following situations exist: (1) a material factual or legal
matter was overlooked; (2) a change in the law occurred after submission of the case
and was overlooked; (3) the opinion conflicts with a decision of the U.S. Supreme
Court, this court, or another court of appeals, and the conflict was not addressed; or (4)
the case involves one or more questions of exceptional importance. A petition for
rehearing, with or without a petition for rehearing en banc, may not exceed 3900 words
if prepared by computer and may not exceed 15 pages if handwritten or prepared on a
typewriter. Copies are not required unless requested by the court. (FRAP 35 & 40,
Loc. R. 40(c)).
MANDATE: In original proceedings before this court, there is no mandate. Unless the
court shortens or extends the time, in all other cases, the mandate issues 7 days after
the expiration of the time for filing a petition for rehearing. A timely petition for
rehearing, petition for rehearing en banc, or motion to stay the mandate will stay
issuance of the mandate. If the petition or motion is denied, the mandate will issue 7
days later. A motion to stay the mandate will ordinarily be denied, unless the motion
presents a substantial question or otherwise sets forth good or probable cause for a
stay. (FRAP 41, Loc. R. 41).

USCA4 Appeal: 20-1131

Doc: 14-1

Filed: 05/21/2020

Total Pages:(3 of 4)

Pg:3of3

U.S. COURT OF APPEAL FOR THE FOURTH CIRCUIT BILL OF COSTS FORM
(Civil Cases)
Directions: Under FRAP 39(a), the costs of appeal in a civil action are generally taxed against appellant if a
judgment is affirmed or the appeal is dismissed. Costs are generally taxed against appellee if a judgment is
reversed. If a judgment is affirmed in part, reversed in part, modified, or vacated, costs are taxed as the court
orders. A party who wants costs taxed must, within 14 days after entry ofjudgment, file an itemized and
verified bill of costs, as follows:
• Itemize any fee paid for docketing the appeal. The fee for docketing a case in the court of appeals is $500
(effective 12/1/2013). The $5 fee for filing a notice of appeal is recoverable as a cost in the district court.
• Itemize the costs (not to exceed $.15 per page) for copying the necessary number of formal briefs and
appendices. (Effective 10/1/2015, the court requires 1 copy when filed; 3 more copies when tentatively
calendared; 0 copies for service unless brief/appendix is sealed.). The court bases the cost award on the page
count of the electronic brief/appendix. Costs for briefs filed under an informal briefing order are not
recoverable.
• Cite the statutory authority for an award of costs if costs are sought for or against the United States. See 28
U.S.C. § 2412 (limiting costs to civil actions); 28 U.S.C. § 1915(f)(1) (prohibiting award of costs against the
United States in cases proceeding without prepayment of fees).
Any objections to the bill of costs must be filed within 14 days of service of the bill of costs. Costs are paid
directly to the prevailing party or counsel, not to the clerk's office.
Case Number & Caption:
Prevailing Party Requesting Taxation of Costs:
Appellate Docketing Fee (prevailing
appellants):

Amount Allowed:

Amount Requested:
Page

Document

No. of Pages

No. of Copies

Cost

Total Cost

(<$.15)

Allowed Requested
Requested (court
use only)

Allowed
(court use only)

Requested

$0.00

TOTAL BILL OF COSTS:

Allowed
(court use only)

$0.00

1. If copying was done commercially, I have attached itemized bills. If copying was done in-house, I certify that my
standard billing amount is not less than $.15 per copy or, if less, I have reduced the amount charged to the lesser rate.
2. If costs are sought for or against the United States, I further certify that 28 U.S.C. § 2412 permits an award of costs.
3. I declare under penalty of perjury that these costs are true and correct and were necessarily incurred in this action.

Date:

Signature:

Certificate of Service
I certify that on this date I served this document as follows:
Signature:

Date:

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
DERRICK ALLEN,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.
SARA GLINES, et al.,
Defendants.

1:19CV793

ORDER
The Recommendation of the United States Magistrate Judge was
filed with the court in accordance with 28 U.S.C. § 636(b) and, on
December 2, 2019, was served on the parties in this action.
4, 5.)

Plaintiff objected to the Recommendation.

(Docs.

(Doc. 6.)

The court has appropriately reviewed the portions

of the

Magistrate Judge's report to which objections were made and has
made a de novo determination in accord with the Magistrate Judge's
report.

The

court

therefore

adopts

the

Magistrate

Judge's

Recommendation.
IT IS THEREFORE ORDERED that Plaintiff's federal claims be
dismissed

for

failure

§ 1915(e) (2) (B) (ii),

to

state

a

claim

under

28

U.S.C.

and his state claims be dismissed without

prejudice under 28 U.S.C. § 1367(c)(3).

/s/
Thomas D. Schroeder
United States District Judge
January 21, 2020

Case l:19-cv-00793-TDS-LPA Document 7 Filed 01/21/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
DERRICK ALLEN,

)
)

Plaintiff,
)

v.

1:19CV793
)
)

SARA GLINES, et al.,
Defendants.

JUDGMENT
For the reasons set forth in the Order filed contemporaneously
with this Judgment,
IT IS THEREFORE ORDERED AND ADJUDGED that Plaintiff's federal
claims be dismissed for failure to state a claim under 28 U.S.C.
§ 1915 (e) (2) (B) (ii),

and his state claims be dismissed without

prejudice under 28 U.S.C. § 1367(c) (3) .

/s/
Thomas D. Schroeder
United States District Judge
January 21, 2020

Case 1:19-CV-00793-TDS-LPA Document 8 Filed 01/21/20 Page 1 of 1

USCA4 Appeal: 20-1131

Doc: 14-2

Filed: 05/21/2020

Pg: 1 of 1

Total Pages:(4 of 4}

FILED: May 21, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1131
(1:19-cv-00793 -TDS-LPA)

DERRICK ALLEN
Plaintiff - Appellant
v.

SARA GLINES; JIM PURYEAR; ROBYN TOMLIN; JANE ELIZABETH;
NEWS & OBSERVER; HERALD SUN
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

USCA4 Appeal: 20-1131

Doc: 19

Filed: 06/23/2020

Pg: 1 of 1

FILED: June 23, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1131
(1:19-cv-00793-TDS-LPA)

DERRICK ALLEN
Plaintiff - Appellant
v.

SARA GLINES; JIM PURYEAR; ROBYN TOMLIN; JANE ELIZABETH;
NEWS & OBSERVER; HERALD SUN
Defendants - Appellees

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

